No. 20-193
IN THE SUPREME COURT
OF THE UNITED STATES
CALVIN MCMILLAN,
v.

Petitioner,

STATE OF ALABAMA,
Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.l(h), I certify that the Brief of Amici
Curiae Former Alabama and Florida Circuit Court Judges In Support of Petitioner
Calvin McMillan’s Petition for Writ of Certiorari contains 3,482 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 21, 2020.

James F. Bogan III
KILPATRICK TOWNSEND &
STOCKTON LLP
1100 Peachtree Street NE
Suite 2800
Atlanta, GA 30309
(404) 815-6500
jbogan@kilpatricktownsend.com
Counsel for Amicus Curiae Former Alabama
and Florida Circuit Court Judges

